<html>
<title> - OVERSIGHT OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 116-213]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-213
 
                            OVERSIGHT OF THE
                     NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-627 PDF             WASHINGTON : 2020 
 
 
 
         
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director 
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 4, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Svinicki, Kristine, Chairman, U.S. Nuclear Regulatory Commission.     5
    Prepared statement...........................................     6
    Responses to additional questions from:
        Senator Barrasso.........................................    14
Baran, Hon. Jeff, Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................
    Responses to additional questions from:
        Senator Barrasso.........................................    42
        Senator Markey...........................................    45
        Senator Whitehouse.......................................    46
Caputo, Hon. Annie, Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................    47
    Response to an additional question from Senator Whitehouse...    48
Wright, Hon. David, Commissioner, U.S. Nuclear Regulatory 
  Commission 24 Oversight of the Nuclear Regulatory Commission...    49
    Response to an additional question from Senator Whitehouse...    50


                           OVERSIGHT OF THE 
                     NUCLEAR REGULATORY COMMISSION

                              ----------                              


                         TUESDAY, MARCH 4, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    U.S. Senate Committee on Environment and Public Works 
Washington, DC.
    The committee, met, pursuant to notice, at 10:07 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Braun, Rounds, 
Sullivan, Cardin, Whitehouse, Gillibrand, Duckworth.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    This morning, we will review the Nuclear Regulatory 
Commission's Fiscal Year 2021 budget request.
    Clean and constant nuclear power is a cornerstone of our 
Nation's energy infrastructure. It is also vital if we are 
serious about addressing climate change. Nuclear energy 
reliability generates electricity to power our homes and our 
businesses.
    Over the decades, utilities have steadily improved 
performance to increase how much nuclear energy the United 
States produces. As things stand today, this trend will not 
continue. Subsidized renewable energy production and costly 
regulations are contributing to the decline of America's 
nuclear industry.
    To help preserve and expand nuclear energy, Congress passed 
the Nuclear Energy Innovation and Modernization Act. The law 
requires the commission to be prepared to review new reactor 
designs.
    One nuclear startup company is poised to submit an 
application for a first-of-its-kind micro-reactor. This reactor 
will be radically different from today's nuclear power plants 
in size as well as in complexity. The commission's review will 
test its readiness to efficiently and affordably approve such 
new technologies. Preparing to license and oversee new 
technologies must complement the commission's ongoing oversight 
of today's reactors.
    In 2018, the commission staff launched an initiative to 
modernize the program that oversees nuclear power plants. The 
staff proposed modest recommendations to improve the program. 
The recommendations prioritized and incentivized addressing the 
most important safety factors, and I support accepting and 
acting on those recommendations. The agency should continue 
this initiative by identifying additional improvements.
    We also need to preserve our Nation's nuclear fuel supply. 
America's nuclear reactors should be fueled by American 
uranium. The Department of Energy will soon release a report 
recommending actions to revitalize our nuclear fuel cycle, 
including uranium production. Wyoming is the only State 
currently producing American uranium.
    Yesterday, the Secretary of Energy assured me America's 
uranium producers will be provided immediate relief. The Trump 
Administration understands the vital role uranium plays in 
energy and national security. Now we must act to preserve 
America's uranium industry.
    We must also act to speed the deployment of the next 
generation of American reactors. China is now leading the world 
in nuclear deployment. Last year, China increased its nuclear 
generation by 18 percent. It plans to build replicas of 
American-designed nuclear reactors. We shouldn't let other 
countries dominate the global market with technologies that we 
have developed.
    Russia is also advancing their nuclear interests. In 
December, they launched the first commercial floating nuclear 
plant to power remote populations near the Arctic Circle. 
Russia is also signing long-term deals with numerous countries, 
including Turkey and Egypt, to construct, operate, fuel, and 
service new nuclear power plants.
    The President has taken steps to create an America-first 
nuclear energy policy. Congress and the Nuclear Regulatory 
Commission should also reassert America's nuclear energy 
leadership. The commission should partner with our allies and 
lead international nuclear forums to establish the regulatory 
framework for advanced reactor technologies. Congress should 
provide the commission the direction, the authority, and the 
resources that it needs.
    The commission should not only be able to license new 
reactor designs, but also reduce barriers to manufacturing and 
to using new reactor designs. Many restrictions on our nuclear 
industry are over 60 years old. By modernizing these outdated 
laws, Congress can unleash America's nuclear potential.
    I look forward to hearing more about how the Nuclear 
Regulatory Commission plans to meet the needs of the industry 
that it regulates.
    I now turn to Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thanks for pulling 
this together and to the Commissioners, thank you. Thank you 
all for joining us. It is always, for us, a pleasure to meet 
with you and to see how we are doing and see how we can do even 
better.
    Since last time we met, I just asked Laura Haynes Gillam, I 
said, how long has it been since the commission was before us, 
and she said, 10 months ago. Does that sound about right? About 
10 months ago? And a lot has happened in 10 months. In fact, a 
lot has happened in the last 24 hours around the Country.
    One of the things that has happened in the last 10 months 
is we have experienced, for the fifth year in a row, the 
hottest year on record. I think January was the hottest January 
on record. Our oldest son lives out in California. North of the 
Bay Area where he lives, he had wildfires bigger than the size 
of my State.
    In Australia, about a month ago, they had wildfires that 
were bigger than the State I was born in, West Virginia. My 
wife likes to travel with some of her former colleagues. They 
are all retired from DuPont, and they just go places together. 
They went down to Antarctica in January. I asked her when she 
was down there, I said, is it cold? And she said, it is like in 
the 30's. I think maybe they got up to 40 1 day.
    But since she has come home, since they have come home, we 
have seen temperatures down there as high as initially 63 
degrees, record, 65 degrees, record, 68 degrees, record. While 
they were down there, a piece of Antarctica the size of the 
District of Columbia broke loose and floated off into the 
ocean.
    There are some people, including somebody who is actually 
running for president, who thinks we ought to close all the 
nuclear plants in the Country. I think that overlooks the fact 
that, what is it, Mr. Chairman? About half the carbon-free 
electricity we generate, even in this Country we are in, the 
planet, comes from nuclear power plants. To say that we are 
going to close them all, or even a significant number of them 
is, I think, foolish if we are serious about addressing climate 
change and the climate crisis.
    I am interested in hearing, we are interested in hearing, 
about new technology that is coming and how we can support that 
technology. So that is an audible, I have a statement here I am 
going to read, but that is little bit of an audible that I am 
going to start off with.
    The United States has one of the safest, I think maybe the 
safest, nuclear industry in the world, and that is in no small 
part because of the Nuclear Regulatory Commission, which really 
continues to be the world's gold standard for nuclear 
regulatory agencies.
    This morning, I hope we can discuss whether the President's 
budget proposal would provide NRC with all the resources and 
tools it needs to keep our Country's nuclear power the safest 
in the world. I also hope that we will be able to discuss the 
investments and advances that need to be made to ensure that 
nuclear power remains a safe and viable way to power our 
Country while promoting cleaner air and stronger public health.
    As I have already stated, I think the power of safe nuclear 
energy, I believe in it, and I believe it is an effective tool 
in our arsenal to combat the growing threat of climate change. 
As global temperatures warm, ice caps melt, sea levels rise, 
our Nation's leading scientists have warned us repeatedly that 
if we fail to start seriously reducing carbon emissions now, by 
the end of the century, we will face catastrophic consequences.
    We won't be around when that happens, but our children 
might be. Our grandchildren certainly will be, and we have to 
look out for them.
    Meanwhile, across the Country, we have something like 96 
operating nuclear reactors that are running more efficiently 
than ever before. Think about that. Running more efficiently 
than ever before. These reactors are producing clean, carbon-
free electricity.
    As we face down the climate crisis, we would be remiss to 
dismiss the opportunity that comes with advanced nuclear power, 
a clean and carbon-free form of energy. By replacing old 
nuclear technology with new technology developed right here at 
home, technology that is safer, produces less spent fuel, and 
costs less to build and operate, we can reap the economic 
benefits of a new, advanced nuclear generation while doing 
right by our planet. I call it the intersection of doing 
something good for the planet and creating economic opportunity 
and growth and jobs.
    In order to do that, however, we need to make sure that the 
NRC has the resources it needs to review these new technologies 
and keep our current nuclear reactor fleet safe. I hope we will 
discuss that today. If we want the U.S. nuclear industry to 
have a successful future, we need to invest in its future, and 
that means also investing in its work force.
    Any organization needs a strong, dedicated work force to be 
successful. The NRC is no exception. As we talk about the next 
generation of nuclear technology, we need to be thinking about 
the next generation of nuclear scientists and nuclear 
engineers. We need to ensure that the NRC has adequate funding 
to continue to attract the best and brightest talent.
    Unfortunately, the current Trump Administration has 
proposed, yet again, to eliminate the Integrated University 
Program. We think that is a mistake.
    There is still hope for this carbon-free technology. We 
have to understand the decisions we make today will affect the 
industry for generations to come.
    Let me just make a remark, Mr. Chairman, if I can, on 
safety, and people, have said oftentimes to me, that nuclear 
power is not safe. I spent 23 years of my life as a naval 
flight officer. My job, active reserve duty, a job, my 
squadron's job, were to track Soviet submarines in all the 
oceans of the world. Nuclear submarines, for the most part.
    We would work with our own nuclear submarines, sometimes, 
on those missions. We have been in nuclear Navy ships, 
submarines, aircraft carriers for something like 70 years, 70 
years. And when I talk to people who are questioning the safety 
of nuclear power, I tell them about that.
    And I ask them this question: how many sailors have died 
because of exposure to the radiation on their submarines or 
their ships or aircraft carriers? How many have died in the 
last 60 or 70 years because of that exposure? And the answer is 
none. The answer is none.
    So this is a technology that serves us well, especially in 
this day with rising temperatures and climate crisis. We need 
to strengthen it, not weaken it. We welcome you here today to 
help us figure out how to do that.
    Thank you.
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    We will now hear from our four witnesses, the Chairman of 
the Commission, Kristine Svinicki, Commissioner Jeff Baran, as 
well as Commissioner Annie Caputo and Commissioner David 
Wright.
    We will continue with the committee's practice of a 5-
minute opening statement by the chairman and 2-minute 
statements from each of the other commissioners.
    I want to remind the witnesses that your entire written 
testimony will be made part of the official record.
    Chairman Svinicki.

STATEMENT OF HON. KRISTINE L. SVINICKI, CHAIRMAN, U.S. NUCLEAR 
                     REGULATORY COMMISSION

    Ms. Svinicki. Thank you very much. Good morning, Chairman 
Barrasso and Ranking Member Carper.
    My colleagues and I appreciate the opportunity to testify 
this morning on the USNRC's licensing and regulatory actions 
since our last appearance, and on our Fiscal Year 2021 budget 
request. The funding we are requesting will enable the NRC to 
continue to uphold our important safety and security mission 
while improving the agency's efficiency and effectiveness, and 
will support NRC's continuing efforts to transform into a more 
modern, risk-informed regulator, including implementation of 
the requirements of the Nuclear Energy Innovation and 
Modernization Act.
    These efforts are vital in light of the spectrum of 
applications for advanced reactors and other novel technologies 
the agency anticipates receiving in the coming years.
    The NRC's Fiscal Year 2021 budget request, including 
resources for the NRC's Office of the Inspector General, is 
$863.4 million, including 2,868 full-time equivalent employees. 
This represents an increase of $7.8 million when compared with 
the Fiscal Year 2020 enacted budget.
    When compared with the NRC's Fiscal Year 2020 total budget 
authority, however, which included the use of $40 million in 
prior-year carryover, this request represents a decrease of 
$32.2 million.
    The Fiscal Year 2021 budget also reflects changes directed 
by NEIMA, the Nuclear Energy Innovation and Modernization Act, 
regarding fee recovery and limitations on corporate support 
costs to the maximum extent practicable. Our overall resources 
requested for the Nuclear Reactor Safety Program are over $450 
million. This funding represents an increase when compared to 
the 2020 enacted budget. This is attributable, chiefly, to the 
development of regulatory infrastructure for advanced nuclear 
reactor technologies.
    The Fiscal Year 2021 budget request for nuclear materials 
and waste safety is $125 million, and represents an increase of 
approximately $5 million. The budget request does not include 
funding for licensing activities related to the proposed Yucca 
Mountain Geologic Repository.
    The Fiscal Year 2021 budget request for corporate support 
comprises 31 percent of the agency's total budget. This is not 
consistent with the 30 percent target in NEIMA, but the 
commission worked very hard to find efficiencies and did strive 
to meet the Act's requirement, but did provide a budget that 
does rely on the maximum extent practicable.
    The agency has renewed its focus on risk-informed 
regulation, which has contributed to the agency's success over 
the past year in reviewing applications for new technologies or 
that raised novel technical issues. For example, in December, 
the commission approved the first early site permit for a small 
modular reactor at the Tennessee Valley Authority's Clinch 
River site, and the NRC staff is on target to complete its 
safety review of the new scale design certification for a small 
modular reactor design.
    The agency also published a proposed rule regarding 
emergency preparedness for small modular reactors and other new 
technologies for public comment. Also in December, the 
technical staff of the NRC issued the first subsequent license 
renewal for an operating plant.
    In summary, the NRC's budget request before you reflects 
the resources necessary to perform our vital safety and 
security mission while making needed investments in the 
agency's future success. The NRC will also continue to take 
steps to improve our regulatory processes and to position the 
agency to meet these future challenges.
    Thank you very much on behalf of the commission for the 
opportunity to appear before you, and we are pleased to answer 
your questions at the appropriate time.
    Thank you.
    [The prepared statement of Ms. Svinicki follows:]

  WRITTEN STATEMENT BY KRISTINE L. SVINICKI, CHAIRMAN UNITED 
              STATES NUCLEAR REGULATORY COMMISSION

    Good morning Chairman Barrasso, Ranking Member Carper, and 
distinguished members of the Committee. My colleagues and I 
appreciate the opportunity to testify this morning on the U.S. 
Nuclear Regulatory Commission's (NRC) Fiscal Year (FY) 2021 
budget request.
    The NRC is an independent Federal agency established to 
license and regulate commercial nuclear power plants; research, 
test, and training reactors; nuclear fuel cycle facilities; and 
radioactive materials used in medicine, in academia, and for 
industrial purposes. The agency also regulates the transport, 
storage, and disposal of radioactive materials and waste and 
the export and import of radioactive material.
    The agency's statutory mission is to license and regulate 
the Nation's civilian use of radioactive materials, to provide 
reasonable assurance of adequate protection of public health 
and safety, and to promote the common defense and security. The 
funding we are requesting for Fiscal Year will enable the NRC 
to continue to uphold our important safety and security mission 
while improving the agency's efficiency and effectiveness.
    The NRC's proposed Fiscal Year budget request, including 
resources for the NRC's Office of the Inspector General (OIG), 
is $863.4 million, including 2,868 full-time equivalents (FTE). 
This represents an increase of $7.8 million, including 102 
fewer FTE, when compared with the Fiscal Year enacted budget. 
When compared to the NRC's Fiscal Year total budget authority, 
which included the use of $40 million in prior-year carryover, 
this request represents a decrease of $32.2 million or 
approximately 3.6 percent. The Fiscal Year budget request also 
reflects changes directed by Public Law 115-439, the ``Nuclear 
Energy Innovation and Modernization Act'' (NEIMA) regarding fee 
recovery and limitations on corporate support costs to the 
maximum extent practicable.
    Before I discuss specifics of the NRC's Fiscal Year budget 
request, please allow me to provide an update on the NRC's 
ongoing regulatory activities and our continuing efforts to 
transform into a more modern, risk-informed regulator, 
including implementation of the requirements in NEIMA. These 
efforts are vital in light of the spectrum of applications for 
advanced reactors and other novel technologies the agency 
anticipates receiving in the coming years.
    This renewed focus on risk-informed regulation has 
contributed to the agency's success over the past year in 
reviewing applications within established schedules for new 
technologies or that raise novel technical issues while 
maintaining the NRC's strong commitment to ensuring public 
health and safety. In December, the Commission approved the 
first Early Site Permit for a Small Modular Reactor (SMR) at 
the Tennessee Valley Authority's Clinch River Site. At that 
time, the Commission also published a proposed rule regarding 
``Emergency Preparedness for Small Modular Reactors and Other 
New Technologies'' for public comment in the Federal Register. 
Additionally, the NRC staff is on target to complete its safety 
review of NuScale's Design Certification for a SMR Design and 
issued a Safety Evaluation Report with no open items in 
December of last year. Also, in December, the technical staff 
issued the first subsequent license renewal for an operating 
plant, for which the staff resolved a number of first-of-a-kind 
technical issues in the course of its safety review.

      NRC'S RESPONSE TO A CHANGING REGULATORY ENVIRONMENT

    Nuclear Energy Innovation and Modernization Act (NEIMA) The 
NRC has made significant progress over the past year 
implementing licensing strategies required by NEIMA.
    In January, the NRC's Executive Director for Operations and 
Deputy Chief Financial Officer appeared before this Committee 
and provided an update on the agency's activities and progress 
on implementing various sections of NEIMA. Last month, the 
Commission responded to a December 19, 2019, letter from 
Committee members and provided an update on the agency's 
completion of various reports and activities required by NEIMA. 
To date, the agency has sent 9 reports to Congress on topics 
ranging from accident-tolerant fuel to lessons learned from 
emergency evacuations to guidance on baffle-former bolt 
examinations. The agency has developed a rulemaking plan for 
advanced reactor licensing and reviewed the feasibility of 
establishing a flat fee structure for licensing actions from 
uranium recovery facilities. Additionally, the NRC has begun 
work on NEIMA's requirement that the NRC develop a technology-
neutral framework for licensing advanced reactors. The NRC also 
continues to implement the changes to the agency's budget 
process directed by NEIMA.
    Transformation Recognizing that the agency needs to enhance 
its use of risk-informed, innovative approaches in response to 
external technology-driven changes and embrace new and diverse 
ideas, we are modernizing our decisionmaking processes to 
address novel issues raised by applicants and licensees. We are 
implementing innovative actions to transform the NRC's 
organizational culture to become a more effective and efficient 
safety regulator.
    Communication and employee engagement are key to our 
transformation effort. Last June, we held our Futures Jam. A 
``Jam'' is a multi-day collaborative online discussion. This 
concept has been successfully and effectively adopted in 
organizational settings--including at IBM, the European Union, 
and the North Atlantic Treaty Organization--as a collaborative 
crowd-sourcing of ideas. Over 70 percent of the NRC's work 
force participated in the Jam and submitted over 4,000 posts 
during the 3-day session. Incorporating this input, the NRC 
staff has identified seven initiatives that focus on culture, 
career enhancement, risk, process simplification, technology, 
and signposts and markers to incorporate external awareness in 
the NRC's planning processes.
    This past October, the Commission held its third public 
meeting on NRC transformation activities where we heard from 
agency staff on the status of the initiatives supporting the 
focus on improving the effectiveness of its mission as a 
``modern, risk-informed regulator.'' Areas highlighted during 
this meeting included recruiting, developing, and retaining a 
strong work force; improving decisionmaking through accepting 
appropriate risk; using technology more efficiently; and 
establishing a culture of innovation. Also, in October, the 
agency held a Transformation Expo, where the staff presented 
interactive displays and showcased new approaches in support of 
transformation efforts that are under way across the agency. 
The Commission has scheduled additional transformation meetings 
to maintain awareness of ongoing staff activities and provide 
direction to the staff, as appropriate.
    Strategic Workforce Planning Effective human capital 
management is critical to retaining and attracting talent so 
that the NRC has the necessary skill balance available as the 
future unfolds. Strategic Workforce Planning is an essential 
tool used by the NRC in identifying the knowledge, skills, and 
abilities necessary to perform our mission now and in the 
future. One key outcome of these efforts was the identification 
of a need to develop a pipeline of future talent to fill 
anticipated vacant positions due to the increased attrition 
expected over the next 5 years. In recent years, the agency's 
evolving workload and declining budget environment 
significantly limited entry-level hiring. This created 
challenges to our long-term human capital management strategy. 
The lack of entry-level hiring to achieve a demographically 
balanced work force could negatively affect the agency's 
continuing ability to accomplish its mission.
    The NRC revitalized its Temporary Summer Student Program to 
increase the pipeline of entry-level individuals for critical 
skill positions. In 2019, we successfully transitioned 35 
percent of our summer student hires into our Cooperative 
Education Program (Co-Op); we anticipate that nine of these Co-
Op students will graduate by June 2020 and fill entry-level 
positions within the agency. In Fiscal Year 0, the NRC 
anticipates hiring approximately 25 entry-level engineers and 
scientists through a new entry-level training program. 
Strategic Workforce Planning has become part of the agency's 
normal operating procedure and will be addressed annually each 
September.
    Moreover, in keeping with our goals to become a more 
effective and efficient regulator, the agency completed the 
merger of two of its largest offices, the Office of Nuclear 
Reactor Regulation and the Office of New Reactors. This merger 
reflected changes in the agency's workload, specifically the 
decline of applications for new large light water reactors. The 
Fiscal Year budget reflects the efficiencies gained from this 
merger.
    Enhancing the Reactor Oversight Process (ROP) The NRC 
developed the ROP as a risk-informed, performance-based 
oversight program. The staff has provided recommendations to 
the Commission that would enhance the ROP including the 
following: closing greater-than-Green inspection findings and 
performance indicators after followup inspection objectives are 
met; reducing baseline inspection redundancy to better enable 
inspectors to focus on safety significant issues; and improving 
the use of risk insights in emergency preparedness planning 
standards. The recommendations resulted from NRC's 
transformation efforts, stakeholder correspondence, feedback 
from ROP public meetings, and the staff's annual ROP self-
assessment program. Those recommendations are among those 
currently being considered by the Commission.

                     FY 2021 BUDGET REQUEST

    The NRC's Fiscal Year budget request focuses on the 
agency's priority of adapting to today's regulatory environment 
and evolving as the industry's business needs change. The 
following information highlights specific elements of the NRC's 
Fiscal Year budget request. Nuclear Reactor Safety.
    The NRC's Nuclear Reactor Safety Program encompasses 
licensing and overseeing civilian nuclear power reactors, 
research and test reactors, and other nonpower production and 
utilization facilities, such as medical radioisotope 
facilities, in a manner that provides adequate protection of 
public health and safety. This program also provides reasonable 
assurance of the security of facilities including their 
protection against radiological sabotage. This program 
contributes to the NRC's safety and security strategic goals 
through the activities of the Operating Reactors and New 
Reactors Business Lines.
    Overall resources requested in the Fiscal Year budget for 
the Nuclear Reactor Safety Program are $452.8 million, 
including 1,755 FTE. This funding level represents an increase 
of $26.2 million, yet includes 60 fewer FTE, when compared to 
the Fiscal Year enacted budget. This increased funding includes 
$17.7 million for continuing the development of a regulatory 
infrastructure for advanced nuclear reactor technologies. The 
staffing reductions in the Nuclear Reactor Safety Program are 
generally the result of efficiency gains from the 
aforementioned merger of the Office of Nuclear Reactor 
Regulation and the Office of New Reactors.
    Operating Reactors The Operating Reactors Business line 
portion of the Nuclear Reactor Safety Program encompasses the 
regulation of 95 operating nuclear power reactors and 31 
research and test reactors. The NRC is requesting $372.8 
million for operating reactors, including 1,470 FTE, which 
represents an increase of $30.3 million and 13 fewer FTE when 
compared to the Fiscal Year enacted budget. Funding increased 
primarily to support: three new subsequent license renewals 
applications for North Anna Power Station and two additional 
unspecified plants; the anticipated influx of accident tolerant 
fuel (ATF) topical reports; the development of licensing 
infrastructure for ATF, high-burnup and higher enrichment in 
both ATF and current fuel designs; and work related to the 
licensing of medical radioisotope irradiation and processing 
facilities.
    New Reactors The New Reactors Business Line portion of the 
Nuclear Reactor Safety Program is responsible for licensing and 
overseeing the design, siting, and construction of new nuclear 
power reactors, including SMRs and advanced reactors. The new 
reactor activities ensure that new civilian nuclear power 
reactor facilities are developed in a manner that protects the 
health, safety, and security of the public in an efficient 
manner.
    The Fiscal Year budget request for new reactors is $80 
million, including 285 FTE, a funding decrease of $4.1 million 
and 47 fewer FTE when compared to the Fiscal Year enacted 
budget. The decreases are primarily due to the completion of 
reviews for a design certification and early site permit 
application. The NRC is preparing for the anticipated 
transition of the Vogtle Electric Generating Plant, Unit 3 in 
Georgia from construction to operations later this calendar 
year. The NRC also expects to begin the review of one advanced 
non-light-water reactor combined license application for OKLO 
and to complete the review of a design certification 
application for an SMR for NuScale. In addition, the NRC 
anticipates engaging in in preapplication activities with 
several small modular and advanced reactor applicants, as well 
as undertaking several rulemakings associated with new reactor 
activities.
    The NRC continues to focus on activities related to the 
development of regulatory infrastructure to support reviews of 
advanced reactor technologies. Regarding future new reactors, 
the NRC continues to interact with vendors about prospective 
SMR and advanced reactor applications. Additionally, we will 
continue to refine our regulatory processes as we prepare to 
review these potential applications.
    In support of this, in December, the agency published for 
public comment a proposed rule to amend its regulations to 
create an alternative emergency preparedness (EP) framework for 
SMRs and other new technologies by adopting a risk-informed, 
performance-based, and technology-inclusive approach. This 
proposed rule recognizes technological, engineering, and design 
advances by crediting the safety enhancements in evolutionary 
and passive cooling systems, which would minimize the need for 
human intervention in accident scenarios and would slow the 
progression to a potential release of fission products to the 
environment. This approach is consistent with the NRC's history 
of licensing facilities with requirements commensurate with 
their risk. For example, the NRC prescribes fewer requirements 
at research and test reactors under its EP regulations because 
of the lower risk present for those facilities. Similarly, the 
NRC has historically scaled its requirements at certain power 
reactors, such as Fort Saint Vrain, that presented a lower 
hazard profile than typical large-light-water reactors, 
including reduced emergency planning zones with a range of 5 
miles rather than the typical 10 miles.
    Nuclear Materials and Waste Safety The Fiscal Year budget 
request for the Nuclear Materials and Waste Safety Program is 
$125.6 million, including 462 FTE. These funding levels 
represent an increase of $5.4 million and a decrease of 19 FTE 
when compared to the Fiscal Year enacted budget. This program 
encompasses the NRC's licensing and oversight of nuclear 
materials. The budget request does not include funding for 
licensing activities related to the proposed Yucca Mountain 
geologic repository for disposal of spent fuel and other high-
level radioactive waste.
    The agency's work in this area provides assurance of the 
physical security and protection against radiological sabotage, 
theft, or diversion of nuclear materials. Through this program, 
the NRC regulates uranium processing and fuel facilities; 
research and pilot facilities; and other nuclear material uses 
such as medical, industrial, research, and academic. 
Additionally, through this program, the NRC regulates: spent 
fuel storage; transportation and packaging of spent fuel and 
other nuclear material; decontamination and decommissioning of 
facilities; and low-level and high-level radioactive waste.
    Spent Fuel Storage and Transportation The Spent Fuel 
Storage and Transportation Business Line portion of the Nuclear 
Materials and Waste Safety Program supports the safe and secure 
storage of spent fuel and the safe and secure transport of 
radioactive materials. The Fiscal Year budget request for spent 
fuel and transportation is $28.1 million, including 102 FTE. 
These funding levels represent an increase of $5.2 million when 
compared to the Fiscal Year enacted budget. Resources increase 
to support the development of the technical bases, or 
underlying rationale, for reviewing transportation packages for 
ATF and the development of guidance and regulatory 
infrastructure to conduct safety reviews for high-burnup and 
enrichment extension fuel designs that may be submitted in 
future license applications. During Fiscal Year 1, the NRC 
expects to continue to perform safety, security and 
environmental reviews for several license applications for 
storage and transportation packages and to conduct safety 
inspections of construction, loading, and operations of 
Independent Spent Fuel Storage Installations.
    Nuclear Materials Users The Nuclear Materials Users 
Business Line portion of the Nuclear Materials and Waste Safety 
Program supports the licensing and oversight necessary to 
ensure the safe and secure processing and handling of 
radioactive materials in medical, industrial, and academic 
applications. The Fiscal Year budget request for nuclear 
materials activities is $55.5 million, including 201 FTE, a 
funding decrease of $0.7 million and a decrease of 4 FTE when 
compared to the Fiscal Year enacted budget. The requested 
funding supports the completion of reviews of approximately 
2,000 licensing actions, including new applications; requests 
from nuclear materials users for amendments, renewals, and 
terminations; and funding for about 900 routine health, safety, 
and security inspections. In addition, resources would be used 
to coordinate homeland security regulatory initiatives, track 
imports and exports, and support international activities to 
develop or enhance global controls over radioactive sources. 
Decommissioning and Low-Level Waste (LLW)
    The Decommissioning and Low-Level Waste (LLW) Business Line 
portion of the Nuclear Materials and Waste Safety Program 
supports licensing and oversight associated with the safe and 
secure operation of uranium recovery facilities, 
decommissioning of nuclear facilities, and disposition of LLW 
from all civilian sources. The Fiscal Year budget request for 
decommissioning and LLW is $22.8 million, including 86 FTE, a 
funding increase of $1 million and a 7 FTE decrease when 
compared to the Fiscal Year enacted budget. Funding increases 
primarily to support the transition of oversight of Duane 
Arnold Energy in Iowa into the decommissioning program. The 
Fiscal Year budget request also includes funding for 
decommissioning oversight of 20 reactors, five research and 
test reactors, 10 complex materials sites, and five private 
uranium mill sites. The agency also plans to conduct oversight 
of groundwater restoration activities at one licensed and two 
not-yet-constructed uranium recovery facilities.
    Fuel Facilities The Fuel Facilities Business Line portion 
of the Nuclear Materials and Waste Safety Program is 
responsible for ensuring that commercial nuclear fuel cycle 
facilities are licensed and operated in a manner that 
adequately protects public health and safety and promotes the 
common defense and security. The Fiscal Year budget request for 
fuel facilities is $19.3 million, including 73 FTE, which 
represents a decrease of 8 FTE when compared to the Fiscal Year 
enacted budget. These decreases are partly due to an 
anticipated decrease in resources needed for hearings and legal 
support related to new facility submittals and to efficiencies 
gained through organizational restructuring within the NRC's 
Office of Nuclear Material Safety and Safeguards. Corporate 
Support The NRC's corporate support involves centrally managed 
activities that are necessary for agency programs to operate 
and achieve goals more efficiently and effectively and includes 
acquisitions, administrative services, financial management, 
human resource management, information technology and 
information management, training, outreach, and policy support. 
The Fiscal Year budget request for corporate support comprises 
31 percent of the agency's total budget authority, is $271.4 
million and reflects a decrease of $8 million and 23 FTE when 
compared to the Fiscal Year enacted budget. The budget request 
supports continuing efforts to modernize information technology 
to increase productivity and security, to leverage data as a 
strategic asset, to develop the agency work force, and to 
improve the customer experience with Federal services.

                Office of the Inspector General

    The NRC's Office of the Inspector General (OIG) is a 
statutory entity whose mission is to independently and 
objectively audit and investigate programs and operations to 
promote effectiveness and efficiency and to prevent and detect 
fraud, waste, and abuse. The Fiscal Year budget request for the 
NRC OIG is $13.5 million, which includes $11.6 million in 
salaries and benefits to support 63 FTE and $1.9 million in 
program support. These resources will support OIG auditing and 
investigation functions for both the NRC ($12.3 million) and 
the Defense Nuclear Facilities Safety Board ($1.2 million).

                            CLOSING

    In closing, the NRC's Fiscal Year budget request reflects 
the resources necessary to perform our vital safety and 
security mission. The NRC also will continue taking steps to 
improve our regulatory processes and to position the agency to 
meet the future challenges. Chairman Barrasso, Ranking Member 
Carper, and distinguished members of the Committee, this 
concludes my written testimony. On behalf of the Commission, 
thank you for the opportunity to appear before you and for your 
support of the vital mission of the NRC. We are pleased to 
respond to your questions. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Barrasso. Thank you.
    Commissioner Baran.

   STATEMENT OF HON. JEFF BARAN, COMMISSIONER, U.S. NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Baran. Thank you, Chairman Barrasso, Ranking Member 
Carper.
    Thank you for the opportunity to testify today. It is great 
to be back with my colleagues to discuss NRC's work.
    Chairman Svinicki provided a good overview of NRC's current 
activities and budget request. I want to focus on a key aspect 
of the agency's work: our inspections. To protect the public, 
it is important for NRC to set strong health and safety 
standards and then ensure that those standards are met by 
conducting rigorous, independent inspections.
    Safety and security inspections are at the heart of what 
NRC does to ensure that nuclear power plants operate safely. 
The Reactor Oversight Process is NRC's basic framework for 
overseeing the safety of the Nation's nuclear power plants. It 
affects every power reactor in the Country.
    The ROP has generally been an effective safety framework; 
however, some stakeholders have proposed far-reaching changes 
to how NRC oversees the safety and security of nuclear power 
plants, and the NRC staff has made some troubling 
recommendations along these lines. There is now a long list of 
core safety inspections facing potential cuts.
    There are proposals to reduce the frequency of 
comprehensive engineering inspections. There is a separate 
recommendation to reduce the frequency of NRC's problem 
identification and resolution inspections. This is the only 
baseline NRC inspection that looks at a plant's safety culture. 
Cuts to reactor safety, emergency preparedness, and radiation 
protection inspections are also being contemplated.
    With respect to security, the agency is looking at cutting 
the number of force-on-force exercises in half. In addition, 
dramatic cuts to dry cask storage inspections are being 
discussed. The reactor oversight process has never been static, 
and I don't think it should be. There is room for innovation, 
for risk-informing, and for real efficiencies.
    We don't need to settle for the status quo, but NRC 
shouldn't cut inspections to save money. That is not being more 
efficient or more risk-informed, that is just doing less. In my 
view, we should pursue changes that would improve NRC 
oversight, not weaken it.
    Thank you, and I look forward to your questions.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Well, thank you very much for your 
testimony.
    Commissioner Caputo.

  STATEMENT OF HON. ANNIE CAPUTO, COMMISSIONER, U.S. NUCLEAR 
                     REGULATORY COMMISSION

    Ms. Caputo. Good morning.
    I would like to add my thanks to the committee for inviting 
us to testify today, and while I support the statement made by 
the chairman, I would like to add a couple of my own thoughts 
with regard to transformation and budgeting.
    While safety is our mission, our principles of good 
regulation are central to achieving that mission. The Principle 
of Efficiency states ``the American taxpayer, the rate-paying 
consumer, and licensees are all entitled to the best possible 
management and administration of regulatory activities.'' To 
me, this is at the core of our transformation efforts. To me, 
transformation of anything begins with a question: is there a 
better way to do this?
    The NRC has over 45 years of experience regulating nuclear 
energy and materials. Taking this experience and harnessing 
modern technology is key to making data-driven, risk-informed, 
and performance-based decisions.
    This is at the root of continually striving for the best 
possible management and administration. I believe this was 
reflected in the letter we received from several of the 
committee members with regard to our efforts to consider 
enhancement of the Reactor Oversight Process that my colleague, 
Commissioner Baran, just mentioned.
    Budgeting, I believe, is another area where we need to 
implement more data-driven decisionmaking. In 2017, the GAO 
noted that we use two different accounting systems for budget 
formulation and budget execution. This remains true today. We 
should use actual expenditures to achieve more data-driven, 
accurate budgets in the future. Financial management, I don't 
believe, should be exempt from our agency's transformation 
efforts.
    Thank you, and I look forward to your questions.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Thank you very much.
    Commissioner Wright.

    THE HONORABLE DAVID WRIGHT, COMMISSIONER, U.S. NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Wright. Thank you. Good morning Chairman Barrasso, 
Ranking Member Carper, and esteemed members of the Committee. 
Thank you for the opportunity to testify today.
    I would like to start by thanking my colleagues and the NRC 
staff. I have learned so much from each of my fellow 
commissioners, and appreciate their collegiality and insights 
on each of the matters that come before the commission.
    I would also like to thank the NRC staff for their work and 
dedication to the agency's critical safety mission. I am 
humbled by their efforts, both in evaluating complex safety, 
security, and environmental matters in the first instance, and 
in reexamining those issues when needed to ensure the public is 
adequately protected.
    In walking the halls of the NRC and visiting facilities 
over the last 2 years, I have gained invaluable insights into 
the agency's priorities, successes, and challenges. What I have 
learned is that our priority and our success are easy to 
define. It is the safe and secure operation of the civilian 
nuclear fleet, and this is the shared goal of the commission, 
the staff, and our licensees.
    The challenge is how to reach that goal in the most 
effective and reliable way possible, while dealing with 
uncertainties, new information, changes in the regulatory 
environment, and new technologies. I believe the NRC is up to 
the challenge. I am excited by the energy around the agency's 
transformation and innovation initiatives, as it demonstrates 
how willing and able the NRC is to turn a critical eye inward 
to examine ways to improve and account for new information, 
data, and technologies. I am impressed by the staff's hard work 
and creative, thoughtful ideas.
    I am also pleased to see the work we are doing to improve 
our budgeting processes in response to the Nuclear Energy 
Innovation and Modernization Act. I am following how this all 
motivates other changes in how we do our work. I see change as 
an opportunity. Change in how we perform our work is an 
opportunity to use data and experience to recalibrate our 
activities to be a smarter, more effective regulator prepared 
to regulate both existing and new technologies.
    Thank you, and I look forward to your questions.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Well, thank you very much to all of you 
for your testimony.
    There have been a couple of reports that we have seen. I am 
going to make comments on both.
    First is, last week, the Nuclear Regulatory Commission's 
Office of the Inspector General issued a report. It found flaws 
in the staff's safety review of a gas transmissions line that 
crosses the property of the Indian Point, New York nuclear 
site.
    Chairman Svinicki immediately directed the agency's senior 
staff to review the analysis and recommended actions to prevent 
this from happening again. I appreciate the chairman's 
leadership on this. I ask unanimous consent to enter into the 
record Chairman Svinicki's memorandum to the Executive Director 
of Operations and the staff's response. Without objection, that 
is admitted.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Your Rights under the Energy Reorganization Act
    The Energy Reorganization Act (ERA), makes it illegal to 
discharge or otherwise retaliate against an employee because 
the employee or any person acting at an employee's request 
engages in protected activity.

    Employers covered by the ERA are:

    The Nuclear Regulatory Commission (NRC)
    A contractor or subcontractor of the NRC
    A licensee of the NRC or an agreement State, and the 
licensee's contractors and subcontractors
    An applicant for a license, and the applicant's 
contractors and subcontractors
    The Department of Energy (DOE)
    A contractor or subcontractor of the DOE under the Atomic 
Energy Act (AEA)

    You are engaged in protected activity when you:

    Notify your employer of an alleged violation of the ERA or 
the AEA
    Refuse to engage in any practice made unlawful by the ERA 
or the AEA
    Testify before Congress or at any Federal or State 
proceeding regarding any provision or proposed provision of the 
ERA or the AEA
    Commence or cause to be commenced a proceeding under the 
ERA, or a proceeding for the administration or enforcement of 
any requirement imposed under the ERA
    Testify or are about to testify in any such proceeding
    Assist or participate in such a proceeding or in any other 
action to carry out the purposes of the ERA or the AEA

    Employers may not retaliate against you for engaging in 
protected activity by:
    Intimidating
    Threatening
    Restraining
    Coercing
    Blacklisting
    Firing
    or in any other manner retaliating against you

    Filing a complaint: You may file a complaint within 180 
days of the retaliatory action. A complaint may be filed orally 
or in writing. If you are not able to file the complaint in 
English, OSHA will accept the complaint in any language. The 
date of the postmark, facsimile transmittal, e-mail 
communication, telephone call, handdelivery, delivery to a 
third-party commercial carrier, or in-person filing at an OSHA 
office will be considered the date of filing. The complaint may 
be filed at or sent to the nearest local office of the 
Occupational Safety and Health Administration (OSHA), U.S. 
Department of Labor, or the Office of the Assistant Secretary, 
OSHA, U.S. Department of Labor, Washington, DC. 20210.

    If DOL has not issued a final decision within 1 year of the 
filing of the complaint, you have the right to file the 
complaint in district court for de novo review, so long as the 
delay is not due to your bad faith. For additional information: 
Contact OSHA (listed in telephone directories), or see the 
agency's website at: www.whistleblowers.gov.

    Employers are required to display this poster where 
employees can readily see it.

    Senator Barrasso. Let me turn to Chairman Svinicki on 
another report. In 2018, I asked the Government Accountability 
Office to review and report on changes in the commission's 
planning, budgeting, and financial management activities. The 
report was released just this morning. It recommends the 
commission improve its communications with licensees and 
clearly define licensing costs. This is going to increase 
predictability and transparency.
    Can you talk about how the commission is increasing the 
transparency on the regulatory costs for your licensees?
    Ms. Svinicki. Thank you for the question, Chairman 
Barrasso. I know that the committee had our Executive Director 
for Operations and our Chief Financial Officer before the 
committee in January on these topics, so I will attempt to be 
very brief.
    I would reflect that in the 12 years I have served on this 
commission, it is a step change in sophistication in our 
budgeting and execution. There are still opportunities for us 
to continue to improve, particularly on transparency in the 
regulatory fee, the generation, the calculation of the fees, 
the invoicing that we are required to do to regulated entities.
    I think that the electronic billing system that has been 
implemented is a noteworthy improvement in their ability to 
receive and pay invoices electronically to have greater 
information, more detail on the charges being assessed. It is a 
journey; we are continuing to look at some of our legacy 
financial systems as many government agencies are. But I would 
say that this is a priority for the agency and we are working 
hard on it.
    Senator Barrasso. Thank you.
    Commissioner Caputo, last week the commission unanimously 
approved a staff proposal to revise the Oversight Program for 
the new reactor under construction at the Vogtle Georgia Site. 
The revisions recognize the reduced risk of newer nuclear 
technologies.
    How do you recognize and incorporate changes in risk into 
your overall commission's Reactor Oversight Program?
    Ms. Caputo. Well, I think that largely is a testament to 
the quality of the staff's work in reviewing the reactor 
technology, how it is going to be implemented, the programs 
that the licensee is putting in place. It reflects the advances 
in the technology, the use of passive safety and the lower risk 
profile.
    So in considering how oversight would be different and 
reflect that lower risk profile, I think the staff has put 
together a forward-looking approach that is risk-informed and 
performance-based and reflects that innovation.
    Senator Barrasso. Chairman Svinicki, the Nuclear Energy 
Innovation and Modernization Act limits how much the commission 
can request to pay for overhead costs, such as office space and 
human resource management. The limits were established to 
ensure funding is primarily used to help the agency meet its 
mission. The funding is capped at 30 percent in 2021.
    The commission's 2021 request for these activities exceeds 
these limits. How will the commission reduce these costs to 
ensure compliance with the new law?
    Ms. Svinicki. As I noted in my oral remarks, I am 
disappointed to sit before you and not have achieved that 30 
percent target. I can just communicate to the sincerity of 
every member of this commission to look for ways to meet the 30 
percent without needing to invoke to the extent practicable.
    The simplest way I can put it is, when we looked at what it 
would take to do that, there are things that, if you can invest 
something now, you can have future efficiencies and savings.
    What I would represent to you is the budget before the 
Congress now, we sought to balance the kinds of things to keep 
NRC prepared for the future. The investments are needed. We 
were very close to the 30 percent target. I know close isn't 
meeting the target, but it was a little over 30 percent, and I 
own that, and assess that. We did try.
    I think our commitment to continuing to look for 
efficiencies as the NEIMA targets continue to be in place in 
the coming years will be a very sincere and searching look for 
continued efficiencies.
    Senator Barrasso. Last year, I requested that the 
commission consider developing a generic environmental impact 
statement for advanced nuclear reactors. Developing this 
environmental document could increase some predictability, 
could reduce costs, could decrease permitting time for nuclear 
innovators.
    What is the current status of that review?
    Ms. Svinicki. Just this week, the NRC staff submitted a 
report or paper to the commission that indicated it is the NRC 
staff's intention to move forward on a generic EIS for advanced 
reactor technologies. They have tried to assess how much of an 
efficiency gain, they think maybe about 25 percent of work, 
overlapping work with the different advanced reactor 
technologies could be addressed, but they do intend to proceed. 
So they have informed the commission that they are going to 
continue to move forward on that.
    Senator Barrasso. My final question before I turn to 
Senator Carper, and there is a roll call vote going on, so some 
members may be coming and going to have an opportunity to get 
to the floor to vote.
    In 2017, I asked the Nuclear Regulatory Commission and the 
Environmental Protection Agency to sign a memorandum of 
understanding to address some of the jurisdictional concerns 
regarding the regulation of uranium production. The memorandum 
will increase predictability for America's uranium producers.
    Will you work with the EPA to complete this memorandum?
    Ms. Svinicki. Yes, and the status of that is that it is 
currently now at its final level of review with the EPA 
Administrator. And in the case of our commission structure, it 
is with the commission as a whole to authorize my signature.
    Senator Barrasso. Thank you, Madam Chairman.
    Senator Carper.
    Senator Carper. Thanks. Let me just ask a question of our 
colleagues here. Do any of you need to leave right away? I can 
wait, hold off on my questions. No? Are you good? All right.
    Again, welcome. It is great to see all of you.
    First question I have would be of Commissioner Baran, 
dealing with the Reactor Oversight Process. Commissioner Baran, 
can you just give us an update on the proposal to make changes 
to the Reactor Oversight Process, and provide any further 
details on concerns you might have with possible changes? Go 
ahead, and then I have a followup to that.
    Mr. Baran. Sure. Well, as I mentioned in my opening 
statement, we have had the Reactor Oversight Process for 20 
years now, and it has never been a static process. It is going 
to change.
    To me, I think the test that was when we are considering 
changes, is it something that is going to improve the process, 
increase safety, or is it something we are doing just to save 
money. I am very concerned about a lot of the proposals to 
reduce inspections in order to save money. I think that is the 
wrong approach. I think we need, if we are going to look at an 
inspection change, it should be a strong safety case for that. 
We should be looking at operating experience, inspection 
experience, and make sure we are really thinking through.
    It has been an effective program. We don't want to cause 
unintended consequences. We don't want to break something that 
is largely working well, and we don't want to weaken oversight. 
That is my approach to it.
    Senator Carper. All right. The followup, if I can, as you 
know we have multiple nuclear reactors that are closing, and as 
a result, additional spent fuel going into dry cask storage. 
Earlier this year, I expressed concerns to NRC's staff about 
proposals to reduce dry cask storage inspections.
    Could you just give us an update on that issue please?
    Mr. Baran. Sure. Well, the NRC staff is actively 
considering major reductions in NRC's safety inspections for 
dry cask storage installations. One proposal being discussed 
would cut dry cask storage loading inspections by 47 percent. 
Another proposal would cut dry cask storage installation 
routine monitoring by a third.
    There is a lot going on right now that has the agency, the 
industry, and the public focused on the safety of dry cask 
storage. We have nuclear power plants decommissioning, as you 
mentioned. There is increased interest in consolidating interim 
storage.
    There was a near drop of a dry cask at San Onofre in 
California. I don't think it makes sense to consider deep cuts 
to NRC's modest inspection program in this area. Slashing 
inspections would not enhance safety. It would just reduce 
public confidence in the safety of this method of storage, and 
I think heighten the safety concerns of dozens of host 
communities across the Country.
    Senator Carper. All right, thank you.
    Chairman Svinicki, if I could ask a question of you, and 
maybe I will ask one or two of the others commissioners to 
comment too. I will just direct the question initially to you.
    Do you believe the NRC will have the resources needed in 
the long run to continue to do its job effectively? If the NRC 
does not have the needed funding, are the tools in the law 
adequate to ensure that the NRC is able to inform us in 
Congress that additional funding is needed?
    Ms. Svinicki. Thank you for that question.
    Senator Carper. You are welcome.
    [Laughter.]
    Ms. Svinicki. Again, as we continue to engage this 
committee and other committees of the Congress on our budget as 
the years progress, I am confident that there is a shared goal 
to prepare NRC for the future and to maintain the safety of 
current nuclear facilities in the United States. I would hope 
that based in that common ground, there would be support for 
NRC and the resources it needs going forward.
    I think the human, the people question, is something that 
has dependencies outside of NRC. By that, I mean we have got to 
get young people interested in this technology. There are more 
people going into the study of nuclear science. That encourages 
me.
    But when they think about some of the planning for the 
deployment of advanced nuclear technologies, I don't see a 
corresponding elevation in people entering the pipeline who 
would be designing and licensing and running those plants in 
the future. That is probably my principal concern, is the human 
capital challenge in the nuclear enterprise, as a whole.
    Senator Carper. All right. Just very briefly, do any other 
commissioners want to comment just very briefly on that 
question? Commissioner Caputo?
    Ms. Caputo. I would like to support what the chairman said 
on that topic. Largely, the human capital challenge for us as 
an agency is partly driven by the need to attract young people, 
and also to maintain and develop our mid-level managers as well 
to prepare to take over for this large body of experts that we 
have that are nearing the end of their career.
    So I think the juggling of our ability to really benefit 
from the expertise of the more experienced portion of our work 
force, but juggle the incoming new expertise and make sure that 
we have our skills where we need them at the right time, I 
think, is one of the biggest challenges facing the agency.
    Senator Carper. OK, thanks. On April 4th, that is a 
Saturday, in the Port of Wilmington in Wilmington, Delaware, 
the most modern fast-attack nuclear submarine on the planet 
will be commissioned, the U.S.S. Delaware. It has been a labor 
of love for 7 years to get us to that day.
    One of the things we are doing is partnering with the 
Department of Education and many schools in our States to 
connect schools, students, to our submarine and the crew and to 
have a chance to tour the submarine and find out about nuclear 
energy, find out how do you go to sea for 90 days and be 
submerged and have air to breathe and water to drink, and find 
your way under the polar ice caps.
    So the idea there is to pique their curiosity and their 
interest, and hopefully they will provide some incentive and 
encouragement for youngsters, young men and women, to consider 
nuclear energy as a career going forward.
    Thank you.
    Senator Braun.
    [Presiding] Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman. I have a couple of 
questions on the budget. But I think rather than getting into 
budget issues, I would like to give you all an opportunity to 
talk a little bit about the future of energy policy in the 
United States with regard to nuclear energy.
    What I would like to start with is this. We are going to 
lose three more nuclear power plants in the coming year. 
Clearly, it is a baseline source for power. As new renewables 
come online, there is still a need for a baseline of power.
    Can you share with me what you think the greatest risk is 
to the future for nuclear power to be a part of that baseline 
power source for this Country for years to come?
    And I would just like to go right down the row. Madam 
Chair.
    Ms. Svinicki. Thank you, Senator.
    In addition to kind of the human resource and human capital 
challenge that we mentioned, just nuclear enterprise-wide, 
there would need to be substantially, I think, enhanced numbers 
of people entering the nuclear sciences and professions, and 
also some of the supporting capacities.
    I know that our colleagues at the Federal Energy Regulatory 
Commission have the tough work of looking at market structures 
for electricity in the United States. I think that my 
assessment is, that market system has more to do with some of 
these decisions to cease operating earlier, more so than any of 
the nuclear safety matters that we are involved in.
    And I think longer term, the answer is, NRC will need to 
have the kind of adaptable systems to a much more broad scope 
of nuclear reactor technology. Building that capacity takes 
work, takes investment. We are doing our best on it.
    There is a term, watchful waiting, but I would say what we 
are doing is watchful preparing. As technologies are 
developing, we are trying to be as agile to be ready to review 
that technology. But it is not perfect, and we don't want to 
overinvest in technologies that don't make it to the 
development finish line.
    So we have a lot of things to balance, and it is a bit of a 
footrace. Thank you.
    Senator Rounds. Thank you. Commissioner Baran?
    Mr. Baran. I agree with the chairman, that it is largely a 
question of economics in terms of the existing fleet, which 
isn't really in NRC's area, but I think that is true.
    I think, what can we as an agency do, what is within our 
mission, I think it is having an effective licensing process, 
to the extent that as the chairman mentioned, there are new 
technologies that are interested in submitting applications.
    We need to be ready for that, and it is a challenge because 
there are, as many of you know who have been following non-
light water reactors, a lot of vendors out there with a lot of 
very different technologies. It is really going to be on us to 
be ready for all the different technologies that could come 
through the door.
    And so that is a big challenge for us. It has been an area 
where we have been, over the last few years, very focused, and 
that is the part of this question that really is within NRC's 
jurisdiction.
    Senator Rounds. Commissioner Caputo.
    Ms. Caputo. I think one of the most important things that 
we do every day, particularly through our ever-so-dedicated 
work force, is to maintain that safety focus on the existing 
fleet, to make sure that our regulations and our regulatory 
reviews are predictable and effective. Because many times 
licensees would prefer a predictable decision to an expeditious 
one.
    So it is incumbent upon us to do our homework and be 
thorough, but to make sure that we are giving them efficient 
decisionmaking that allows them to continue.
    Part of that, I believe, is embracing modern technology. 
The use of digital instrumentation control has been a 
particular challenge for this agency, but it is also one that 
is fairly important for the future of the existing fleet. So I 
think it is important for us to wrestle with that technology 
and reach a decision so that the industry can feel free to 
implement the safety benefits and efficiency that they would 
see from that technology.
    Senator Rounds. Thank you. Commissioner Wright?
    Mr. Wright. Thank you for the question.
    Being No. 4, a lot of the stuff has already been covered. 
But I do agree with the chairman and my fellow commissioners 
about human resources. We need to have proper people who are 
trained and educated and I would hope have a passion for what 
they are trying to get into in the nuclear field.
    Market conditions are obviously something that we can't 
control. We are safety regulators, so we want to make sure that 
we are not a barrier to new technologies getting to market. 
Because I do think personally that there is a national security 
implication here. So we need to be sure that we are nimble 
enough to be able to adjust to whatever technologies are coming 
before us to be licensed and to regulate them safely.
    Senator Rounds. Thank you. Thank you, Mr. Chairman.
    Senator Braun. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome, everyone. Glad to have you here. As you know, the 
Congress on a very bipartisan basis is giving you some very 
significant new responsibilities and authorities and some very 
significant new resources. I count $230 million for the new 
Advanced Reactor Demonstration Program, $20 million for the 
Nuclear Reactor Innovation Center, $65 million to support 
materials testing, $15 million for you guys, to support your 
reorganization to adapt to the new technologies and so forth.
    A, I hope you are excited by that. B, I hope you are aware 
that this bipartisanship is not the constant posture of 
Congress, and you should take advantage of it. And C, one of 
the motivating factors for some of us in supporting these new 
bills and supporting this new spending is that these new 
technologies hold the promise, at least, of re-purposing our 
nuclear waste stockpile, which now has no real plan. If you 
think Nevada is a plan, anything that is been the plan for 30 
years isn't the plan. So we have no real plan.
    The ability to re-purpose this, I think, is incredibly 
valuable, and it creates a very important public purpose to 
what you are doing. So I hope very much that in all of your 
decisionmaking, you are keeping in mind the importance of that 
solution.
    This is not just a question of getting new reactors 
running. This is not just a question of producing carbon-free 
power. This is also a very important question of seeking 
technological advancements that will give us a way to address 
our nuclear waste stockpile.
    If we were a company, that nuclear waste stockpile, if we 
were in Senator Braun's company, that nuclear waste stockpile 
would be a big fat liability sitting on his books. And every 
year his accountants would come in and say, what the hell are 
you going to do about this, because we are going to have to 
report this big, fat liability sitting on your books.
    Because the U.S. doesn't account that way, it sits there 
more or less free, and that really diminishes our incentive in 
Congress to address the problem. This is about all we have got, 
so please don't let us down on that.
    Can I ask for your reaction to that statement?
    Ms. Svinicki. Senator Whitehouse, the bipartisan investment 
that Congress has been making in advanced nuclear technologies 
is, as you know, kind of unprecedented in my years working in 
and around this issue.
    Senator Whitehouse. So don't blow it.
    Ms. Svinicki. NRC's commitment is to show up as an 
informed, a regulator, but a very informed participant as test 
plans are being designed. In order to have that investment 
yield the information we need to make regulatory decisions. 
Realizing that Congress has been clear with me publicly and 
privately, we are not investing twice so NRC can do this work 
over, so you have to show up and participate with the 
Department of Energy, with the national laboratories when these 
investments are being designed, will you derive from the 
investment the information, the testing data, the things that 
NRC is going to need, and our people are excited about it.
    I appreciate your mentioning that. It is new things; it 
excites the work force, and they are participating, whether it 
be with the Pentagon on micro-reactors, or the Department of 
Energy and engagements on the versatile test reactor. I have 
had DOE counterparts express to me that in their observation, 
this is the most constructive collaborative working 
relationship we have had between NRC and DOE in recent years.
    Senator Whitehouse. And in all of that, you did not mention 
restructuring or re-using the nuclear waste stockpile as a goal 
or a purpose or a function that helps to put on your priority 
list.
    Ms. Svinicki. And let me say I am sorry.
    Yes. I am aware that there are technology developers that 
have that as an objective. I was meeting with some innovators 
from Silicon Valley, and they said, why doesn't the government 
have a kind of a X-prize or something to really incentivize 
developers to make that a key design goal. I thought that was 
intriguing.
    Senator Whitehouse. Do you think you would need further 
legislative authority to make addressing the problem of our 
nuclear waste stockpile as a potential energy resource a 
priority for you?
    Ms. Svinicki. No, for the developers and the private 
investors. If there was some sort of design competition around, 
how could you make the most success in terms of utilizing the 
energy value of spent fuel, so they were talking more about the 
private investment and design.
    Senator Whitehouse. You have a fork in the road, and you 
have a choice between two paths, and one of them will advance 
the use of spent fuel as an energy source. All other things 
being equal, would you lean that way?
    Ms. Svinicki. Well, again, we will review the request for 
safety reviews that come before----
    Senator Whitehouse. All other things being equal, would 
that be an advantage that you would seek to pursue?
    Ms. Svinicki. Because it would be an advantage for the 
developer and the marketplace, it is likely that we would make 
a priority of such a review because it is something that they 
would be pursuing very vigorously. Again, we don't necessarily 
prioritize the technologies that get submitted to us.
    Senator Whitehouse. I am over my time. If I could get 
answers from the other witnesses in QFR form, so I am not 
taking my colleagues' time. Just answer, is the NRC going to 
make it a priority to look at technologies that convey the 
collateral advantage of putting an alternative use to what is 
now a big liability and a big hazard sitting out there, which 
is our current nuclear waste stockpile? Thank you.
    Thank you, Chairman.
    Senator Barrasso.
    [Presiding] Thank you, Senator Whitehouse. Senator Braun.
    Senator Braun. Thank you, Mr. Chairman.
    You know, like what Senator Whitehouse said, there is a lot 
of collegiate interest in trying to get this worked out. The 
two-fer that we get for addressing the nuclear waste issue, 
along with what is the next act for base load energy 
generation, I think there is a lot riding on it. I think that 
everything he said I would echo 100 percent.
    So as a CEO and entrepreneur, the rare moments in your span 
of whatever enterprise you are in, is to make sure you do stick 
your neck out and take a little risk. And this has nothing to 
do with mitigating the risk of what nuclear energy is about. It 
is about the opportunity.
    I am the first member to join the Climate Caucus on the 
Republican side of the aisle. Now there are six others. It is 
an issue, if you want to emphasize how do we generate 
electricity, and how do we put let CO2 into the atmosphere, I 
think it is very important.
    You folks, as the kind of regulatory board, I think, have 
disproportionate, maybe, ability to engender a movement in the 
direction that he was talking about, where you accomplish two 
things.
    My question would be on, particularly, advanced nuclear 
technology. In all the things I am looking at, to me, it is 
probably the closest to being a bird in the hand for baseload 
production.
    I want your opinion with whatever you do that you are 
setting the stage for us to move as quickly as we can to get 
that from the laboratory into the field, and start with you 
Chairman Svinicki, and go down the line.
    Ms. Svinicki. Senator, this is a very active area for the 
Nuclear Regulatory Commission. I would observe that we are 
extremely engaged in all dimensions, whether it be with the DOE 
National Laboratories, with technology developers who come in 
and want to just talk about our process and how would they 
submit a design and get it reviewed.
    I would characterize that I think that the NRC is very 
proactive, but we don't know what we don't know. We don't know 
in terms of the settling out of a field of maybe 50 different 
reactor technologies.
    Economically, there is going to be, not because we cause 
it, but there will just be a winnowing down of that. And there 
are going to be designs and fuel cycles that come forward 
faster than other ones. So we are trying to keep an eye on that 
and be sure that whichever ones are coming in early versus 
late, that we are preparing ourselves for those while we 
continue to look at the rest of the field out there and see 
what is going to come in behind that.
    Mr. Baran. I agree with everything the Chairman said.
    I would just offer maybe a little bit of perspective. I 
have been on the Commission now 5 years, and this area has 
really taken off quickly in that time. When I first arrived on 
the Commission, there was actually very little talk at that 
point about advanced reactors. It was, you know, there were 
vendors out there, but there was no real prospect that anyone 
was coming through the door any time soon.
    Within a couple years of being on the Commission, the level 
of interest among vendors, the Department of Energy, and within 
NRC, just went through the roof, really. And the level as you 
have talked about, bipartisanship in Congress, the funding that 
we have received to start getting ready, a huge amount of work 
has been done in the last few years. It has really been a 
pretty remarkable ramping-up, and I think it will continue into 
the future as we start getting specific vendors coming in with 
applications.
    Ms. Caputo. There is a myriad of work that is being done, 
but one of the things I think that the staff has made 
considerable progress on is a methodology that will become the 
basis for a future rulemaking that will be technology-
inclusive, risk-informed, and performance-based, as directed in 
the Nuclear Energy Innovation and Modernization Act. So I think 
that is a big step forward for the staff. I think it shows a 
lot of thought, definitely rooted in the history that we have 
and the operating experience that we have. I am particularly 
excited about that.
    In the meantime, until that rule is completed, these are 
going to be novel technologies coming forward, and in some 
ways, they may request novel regulatory approaches to review 
their licensing. I think there are many ways in which we can 
prepare, but some of this will have to be done case by case, 
depending on the nature of what is contained in the 
applications that get submitted.
    Mr. Wright. Thank you for the question, and I do agree with 
the Chairman and the rest of my colleagues, what they have 
said.
    Again, I am going to just reiterate what I said earlier. We 
can't be a barrier to these technologies that are coming 
forward. Obviously, we have to be externally aware of what is 
happening around the world, globally, and in the marketplace. 
The market is going to determine it, ultimately, but we cannot 
be standing in the way. We have got to provide that regulatory 
path.
    Senator Braun. Very good. Be nimble, be entrepreneurial.
    One quick followup question on our current fleet. I visited 
one that I was very impressed with in Michigan. Many are at the 
point of whether they are going to go for the first extension, 
possibly the second from 40 years to another 20, and then 
another 20.
    Chairman, if you would comment, my impression of the 
current nuclear fleet looks like it has learned a lot, they are 
performing well. Would you encourage that most of them exercise 
an extension, or what is your feeling there? Because I think 
that bridges the gap until we get to advanced nuclear 
technology.
    Ms. Svinicki. Senator, just briefly, the Nuclear Regulatory 
Commission staff has issued the first of what we call 
subsequent license renewal. That is the second 20-year 
extension to the operating license. My understanding is that 
among operating reactors in the United States, there is strong 
interest in coming in for further extension. It is an 
individual business case that they will each decide whether 
they come in.
    Senator Braun. That is good. I think that is important to 
bridge the gap between what I think is the next act in energy 
generation, advanced nuclear technology. Thank you.
    Senator Barrasso. Thank you, Senator Braun. Senator 
Duckworth?
    Senator Duckworth. Thank you Chairman Barrasso and Ranking 
Member Carper.
    Chairman Svinicki, I have repeatedly raised my concerns 
with NRC's internal safety culture with you. In the past, when 
I have raised these issues, you have stated that the 
commissioners have an open-door policy and have instituted 
agency-wide training on how to have tough conversations. I 
appreciate those responses. Yet I do not believe that you have 
gone far enough in making your work force feel valued.
    NRC recently published the results of several internal 
polls that were administered as part of a staff JAM. Thousands 
of staff participated, and when asked if NRC needed to change 
its culture, 82.23 percent agreed that a change is needed. Only 
6.76 percent of the staff that responded disagreed that a 
culture change is needed.
    Chairman Svinicki, do you agree that the Commission must 
take additional steps to improve the workplace atmosphere for 
NRC employees?
    Ms. Svinicki. Thank you, Senator Duckworth. The JAM was a 
wonderful opportunity for us to, I think, hear the voices of 
some employees that maybe wouldn't have participated in other 
more formal survey or outreach, and so we do take that result 
very seriously.
    I think that there is an element of the expression of 
changing our culture that has to do with the overall 
modernization, the new technologies we are confronting. We 
have, under the Executive Director for Operations, established 
an initiative with a staff-led team that is looking at agency 
culture specifically. Their work is ongoing. They are engaging 
a lot of the agency staff, and I would depict it as kind of not 
a top-down, but more of a grassroots staff dialog about what 
should the agency's desired culture be.
    So we have work ongoing on that, and more to come that as 
that group completes its work and makes recommendations, we can 
engage you and the committee members on that.
    Senator Duckworth. I would appreciate it, but it is not 
just some, it is literally thousands took part in your JAM. So 
it is not just a handful of people, it is thousands of your 
employees. Why did the NRC remove the results of this JAM from 
the website? It was up for a while; we were able to access it. 
I would like for you to submit them to committee as they were 
originally published.
    Ms. Svinicki. I am not aware of that. May I take that for 
the record and your request, and we will respond to you? I 
wasn't aware of the status of the JAM results.
    Senator Duckworth. All right. It was online, but now it is 
no longer there, so I would like a copy of the original, as 
published.
    Ms. Svinicki. Thank you.
    Senator Duckworth. Thank you. The staff at NRC have made 
several asks of leadership, including ensuring follow-through, 
facilitating teamwork, trusting and supporting staff, stay open 
to feedback, and be accountable. Will these five things be part 
of that work group as they are working on culture?
    Ms. Svinicki. I think that the group has taken these JAM 
indicators and feedback into consideration, but again, it is 
dynamic. That group is really working hard on this, and I would 
like to give you kind of what are the basic metrics that they 
are looking at in that group. I would like to get that for the 
record for you, just to be more precise.
    Senator Duckworth. What are you going to personally do to 
prioritize these very reasonable requests coming from your work 
force?
    Ms. Svinicki. I think the commission, to a person, does try 
to lead by example, but as you have noted, there are thousands 
of employees, and we ourselves need to model the appropriate 
agency culture. But it really needs to be designed and driven. 
The staff needs to tell us, and the feedback you are talking 
about is their input to what they would like to see in a 
desired culture.
    I have worked other places in government, and I think the 
NRC's effort to have deliberative decisionmaking with input and 
participatory decisionmaking is something that is a great focus 
of the agency. I think that gets to some of the indicators you 
mentioned, is hearing every voice, getting the differing views 
out, and having that be part of collaborative decisionmaking at 
the agency.
    Senator Duckworth. While I think it is important for you to 
send a message to your staff that you support this effort, I 
would like to hear from the remainder of the commission 
members. I would like to hear from you as well about the 
culture and whether or not you think the culture needs to be 
changed, and do you support these very reasonable requests that 
came out of the JAM.
    Mr. Baran. Well, I agree with you and with the Chairman 
that it needs to be a focus for all of us. One of the things I 
have been heartened by over the last few years, when we do have 
controversial issues, safety issues that come up before the 
agency, we are seeing the staff more and more send us papers 
that include the variety of perspectives within the staff. 
Because the staff is not one monolithic entity. People have 
different views about it, and if folks have safety concerns 
about taking a certain step, we want to hear those, and we are 
seeing that more and more, people coming forward and building 
that right into the products that are coming up for decision 
for us.
    I am encouraged by that, but I agree with you, it has to 
remain a focus. I know the Inspector General is going to be 
doing a safety culture survey. That will give us an additional 
update on where we are on this, but I agree with you. That 
needs to be a main area of focus.
    Senator Duckworth. Thank you.
    Ms. Caputo. I would just support what Commissioner Baran 
said. We are going to have the upcoming safety culture survey, 
which I think gets at some of the things that you are focused 
on. But one of the things that I appreciated most about the 
Futures Jam was the opportunity for employees to have this 
forum to present wide-ranging views and to have open 
discussions about things like our concurrence process, and does 
it take too long, is it not thorough enough. And to really get 
a full discussion among their peers where they can all voice an 
opinion.
    So I think there are a lot of lessons that we can learn 
from just the level of contribution and the enthusiasm that 
people presented, and sharing those opinions and looking for 
things that the agency can do better.
    Mr. Wright. Thank you, Senator, and I agree with what my 
colleagues are saying.
    But I would like to add from a personal point of view, I 
believe we have got to model what we are trying to implement. I 
do walk the halls. I go to offices and cubicles and try to meet 
people in person where they work. One of the things that I 
think that does is it recognizes people, it empowers people. It 
encourages them to come to you and actually take your open-door 
policy seriously and to share those ideas with you.
    Within the agency, we have got the Embark Studio that 
started. In that area, the people are freely coming in with new 
ideas and trying to push change, which is going to change our 
culture in a very good way.
    Senator Duckworth. Thank you.
    Mr. Chairman, I have a second question I would like to ask 
the panel to respond in writing, and I also ask unanimous 
consent to introduce a fact sheet entitled Your Rights Under 
the Energy Reorganization Act as part of that.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

    Your Rights under the Energy Reorganization Act
    The Energy Reorganization Act (ERA), makes it illegal to 
discharge or otherwise retaliate against an employee because 
the employee or any person acting at an employee's request 
engages in protected activity.

    Employers covered by the ERA are:

    The Nuclear Regulatory Commission (NRC)
    A contractor or subcontractor of the NRC
    A licensee of the NRC or an agreement State, and the 
licensee's contractors and subcontractors
    An applicant for a license, and the applicant's 
contractors and subcontractors
    The Department of Energy (DOE)
    A contractor or subcontractor of the DOE under the Atomic 
Energy Act (AEA)

    You are engaged in protected activity when you:

    Notify your employer of an alleged violation of the ERA or 
the AEA
    Refuse to engage in any practice made unlawful by the ERA 
or the AEA
    Testify before Congress or at any Federal or State 
proceeding regarding any provision or proposed provision of the 
ERA or the AEA
    Commence or cause to be commenced a proceeding under the 
ERA, or a proceeding for the administration or enforcement of 
any requirement imposed under the ERA
    Testify or are about to testify in any such proceeding
    Assist or participate in such a proceeding or in any other 
action to carry out the purposes of the ERA or the AEA

    Employers may not retaliate against you for engaging in 
protected activity by:
    Intimidating
    Threatening
    Restraining
    Coercing
    Blacklisting
    Firing
    or in any other manner retaliating against you

    Filing a complaint: You may file a complaint within 180 
days of the retaliatory action. A complaint may be filed orally 
or in writing. If you are not able to file the complaint in 
English, OSHA will accept the complaint in any language. The 
date of the postmark, facsimile transmittal, e-mail 
communication, telephone call, handdelivery, delivery to a 
third-party commercial carrier, or in-person filing at an OSHA 
office will be considered the date of filing. The complaint may 
be filed at or sent to the nearest local office of the 
Occupational Safety and Health Administration (OSHA), U.S. 
Department of Labor, or the Office of the Assistant Secretary, 
OSHA, U.S. Department of Labor, Washington, DC. 20210.

    If DOL has not issued a final decision within 1 year of the 
filing of the complaint, you have the right to file the 
complaint in district court for de novo review, so long as the 
delay is not due to your bad faith. For additional information: 
Contact OSHA (listed in telephone directories), or see the 
agency's website at: www.whistleblowers.gov.

    Employers are required to display this poster where 
employees can readily see it.

    Senator Duckworth. Thank you.
    Senator Barrasso. Thank you, Senator Duckworth. Senator 
Gillibrand.
    Senator Gillibrand. Chairwoman Svinicki and members of the 
commission, last week the NRC Inspector General released an 
extremely troubling report related to the NRC's analysis of the 
Algonquin Incremental Market Pipeline. The Inspector General's 
investigation found a number of problems with the NRC's 
analysis: improper risk calculations, inaccurate statements, 
and misguided use of a program to assess the impacts of an 
explosion that did not produce accurate results.
    The Federal Energy Regulatory Commission's approval of the 
AIM Pipeline used the NRC's analysis for its environmental 
impact statement and relied heavily on the NRC's expertise for 
approval of the portion of the project that crossed Indian 
Point's property.
    In 2006, I, along with Senator Schumer, called for an 
independent review, which was unheeded by the NRC. Those of us 
who raised concerns at the time were told that the NRC's 
analysis was conservative, and there was no need for any 
additional review.
    The NRC now has a real credibility problem with the 
community around Indian Point, and this is an abject failure of 
your agency's responsibility to ensure that proper analysis was 
done to evaluate the potential risk posed by the pipeline, 
regardless of whether there was a direct or immediate impact to 
plant safety or not.
    I am most interested now in what the NRC is going to do to 
restore its credibility and ensure that this doesn't happen 
again. I have a number of questions to understand how the NRC 
intends to address the facts laid out by the Inspector 
General's report.
    First, can you please explain the steps that the NRC will 
take to reevaluate the safety analysis for the AIM Pipeline and 
modify agency practices or procedures?
    Ms. Svinicki. Thank you, Senator Gillibrand. Again, I want 
to just note for you and commit that to a person, this 
commission, takes this matter, the things identified by the 
Inspector General are real, they are significant, and very, 
very important that we address quickly.
    Upon receipt of the Inspector General report, on behalf of 
the commission, I directed the agency's senior career civil 
servant, the Executive Director for Operations, to do two 
things immediately. The first was to assess whether or not the 
issues raised in the Inspector General report should result in 
immediate regulatory action at Indian Point, and that it needed 
to be done very, very promptly.
    The second item directed at that time was that no longer 
than 45 days, the Executive Director for Operations needed to 
task and have a team that looked at exactly the question you 
posed: what contributed to these gaps and deficiencies in 
agency's processes, what is the extent, even beyond Indian 
Point. If the processes were flawed, are there other impacted 
safety issues that we need to re-look at.
    And so, your question about the scope of the re-analysis is 
something that is actively being worked right now. But I think 
I can confidently State today the NRC expert team acknowledges 
that there will be re-analysis that will be required. They will 
also not be doing this--the folks involved in looking at this 
now did not participate in the prior agency work. Their 
independence within the agency I think is very, very important 
to the credibility question you asked.
    Also, they have been directed that they will reach outside 
for expertise, academic or otherwise, perhaps other government 
agencies that might know about the code and the modeling and 
its appropriate use.
    So I assure you that this has a very, very high priority. I 
directed that they report in 45 days. The Executive Director 
for Operations who is here with me today was not content with 
that. She wants preliminary conclusions in 20 days, so we 
pledge to keep you and others informed.
    Senator Gillibrand. So, preliminary conclusions in 20 days, 
and then when will the review be complete?
    Ms. Svinicki. No later than 45 days at the commission 
itself.
    Senator Gillibrand. And will those results be made public?
    Ms. Svinicki. Yes, I commit that I think they need to be.
    Senator Gillibrand. Will any individuals from outside the 
NRC be participating in the review?
    Ms. Svinicki. Yes. As I indicated, the team that is 
directed to do this 20 and 45-day review has been directed to 
avail themselves of external expertise at other government 
agencies and academia.
    I can't define for you exactly what expertise they are 
going to decide is needed, so I don't know the shape of that 
right know. They are still assessing what kind of external 
expertise they will draw upon.
    Senator Gillibrand. Will there be any peer review of the 
review, meaning, is there going to be any outside, independent 
review of what you are doing now?
    Ms. Svinicki. I can't answer that today, given the 
formative stage of the team coming together and figuring out 
the composition of the team and their prioritizing the early 
priority areas to look at. But I think we will know that soon, 
and if I could get back to you for the record or in writing on 
that.
    Senator Gillibrand. And just for the record, does any other 
commissioner disagree with what the Chairman has said?
    Mr. Baran. I don't disagree with anything that she said.
    I will say this. I think after the NRC's flawed safety 
analysis, you are right, that many people have lost confidence 
in NRC, that we will do this the right way. So for a task force 
to be credible, I think it is important that it be independent, 
and that means having several task force members from outside 
the agency, from academia, from other Federal agencies.
    In my view, those outside experts should really make up a 
majority of that task force, and I think we should consult with 
the State of New York and ask them, who would they recommend 
for us to have on this panel. Because right now, I think with a 
lot of stakeholders, we don't have a lot of credibility on 
this. I think bringing in folks from outside the agency is 
really going to help with that.
    Senator Gillibrand. Mr. Chairman, my time is expired, but I 
do have an additional question. May I ask it, or would you need 
to----
    Senator Barrasso. Go right ahead, Senator Gillibrand. Go 
right ahead.
    Senator Gillibrand. Is that OK with all of you? OK.
    Switching gears to Indian Point decommissioning. A number 
of my colleagues in the New York congressional delegation and I 
have written to you in support of public hearings on the 
proposed license transfer from Entergy to Holtec. New York 
State and a number of other stakeholders have requested a 
hearing.
    Will the NRC hold a public hearing prior to deciding 
whether to approve the license transfer?
    Ms. Svinicki. Senator, there are, as you note, a number of 
hearing requests pending, including from the State of New York. 
It would not be appropriate for the commission to make a 
commitment that we have a regulatory process for evaluating 
those hearing requests, and that is underway now, those hearing 
requests are being evaluated. So, respectfully, I can't make 
that decision or make that commitment for the commission at the 
table today.
    Senator Gillibrand. What would the rationale be if you 
decided not the have a public hearing?
    Ms. Svinicki. This is where I might turn to my lawyer 
colleague to help me out here, but under the regulations, there 
are certain standards against which hearing requests are 
evaluated. Again, the opportunity for hearing is rooted in the 
Atomic Energy Act. There is a complex body of precedent and 
regulatory standards.
    As a non-lawyer, I am going to use words like standing and 
having things that are resolvable within the proceeding, and so 
it is admissibility of challenges, and I am not a lawyer.
    Senator Gillibrand. So from a common-sense perspective, not 
necessarily the legal requirements of your review, it would 
make common sense to make sure the local community has the 
ability to have input. Given all the history of Indian Point, 
given all the disruption that we have seen, given the most 
recent occurrences, and given the lack of credibility the NRC 
has, I can't urge you enough to allow the local community to 
weigh in, so that they are heard, and so that you actually have 
accessed all the information that might be relevant to this 
transfer.
    I just urge you as a matter of practice regardless of what 
the legal standard says that it should be the position of you 
and your commission that local hearings are part of the 
process. Without it, you have untold problems ahead of you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Gillibrand.
    I would like to point out that the Nuclear Regulatory 
Commission Inspector General, I believe, is a critical position 
to detect and to prevent waste and fraud and abuse and 
mismanagement at the commission. This committee has unanimously 
supported the current nominee, Robert Feitel, in December. His 
nomination still awaits floor consideration, so I urge all 
members of the Senate to support that confirmation quickly.
    Senator Carper.
    Senator Carper. Madam Chair, if I could, maybe another 
question directed to you. While I was off voting in the Senate, 
I think a question or two was asked about advanced nuclear. 
Like a lot of my colleagues, I am also interested in this 
issue.
    I am not going to revisit that issue right at this time, 
though, because you have already touched on it, but in 
particular, I am interested in accident tolerant fuel, and I do 
not know if that is something that been examined and discussed 
today. But I believe this technology can benefit existing and 
new technologies.
    Can you just provide us with a status update, please, on 
accident tolerant fuel technologies, and if you have the 
resources you think you all have the resources to handle the 
permitting needs of accident tolerant fuels?
    Ms. Svinicki. I benefit from the fact that our commission 
just held a public meeting on the topic of accident tolerant 
fuels last week. We heard from panelists who were telling us 
about their investment and development of these accident 
tolerant fuels, and then we heard from the NRC staff about a 
status update.
    In brief, much like advanced reactors, there is a kind of 
continuum of novelty. Some of the accident tolerant fuels are 
not as different from the current generation fuel, and then 
there are future accident tolerant fuel concepts that are not 
as well-developed or not as fully designed yet that I think 
have the potential for greater safety enhancement, but they are 
more novel. They have different materials, substantially 
different designs.
    So for the more near-term technologies that the industry 
may deploy, there are already what we call lead test assemblies 
that have been inserted at the Hatch Plant, I think is in 
Georgia, as soon as I was about to say that, I wasn't sure. But 
there is an operating reactor, so some of those lead test 
assemblies have now been removed from the reactor. They will 
soon undergo examination for their materials performance in the 
reactor.
    So I think some of the advanced reactor technologies are a 
bit in the future. But accident tolerant fuel qualification is 
happening right now.
    Senator Carper. Thank you. And just in wrapping up, any 
question you would like to answer that you haven't been asked? 
Commissioner Wright, anything else, a closing thought to leave 
us with, please.?
    Mr. Wright. Senator, I appreciate the opportunity, as I 
know my colleagues do as well. We look forward to working very 
closely with you and the rest of the committee as we move 
forward with all the new things that are before us, and it is a 
lot.
    It is a lot to keep up with, but I am very excited to have 
the opportunity to do this. I am excited every day to get up 
and go to work. I have a great staff. I look forward every day 
to meeting with our SES staff and the rest of the staff around 
the agency. It is an amazing place.
    Senator Carper. This was not always the most collegial 
body, as I am sure the Chairman recalls, and I am glad to see 
that it has changed.
    Just briefly, Commissioner Caputo, anything you want to 
close with.
    Senator Barrasso. She misses serving on the staff of this 
committee. I can see it in her eyes.
    [Laughter.]
    Ms. Caputo. Yes, it is not that far in the past yet.
    Senator Carper. You look good on that side of the table.
    Ms. Caputo. Well, thank you. You look great on that side of 
the table.
    [Laughter.]
    Ms. Caputo. I think, given that this is a budget hearing, 
and that we have significant transformation efforts underway, I 
think one thing that I really look forward to is--being an 
engineer I am kind of a numbers person. So I do really focus 
significantly on the budget and our execution.
    So I think there is a lot of room for us to harness modern 
accounting technology and really begin to use information about 
where we actually spend our money to inform our budget 
development going forward. I think certainly how we closed out 
Fiscal Year 2019 with $62 million in carryover shows a lot of 
room for improvement in terms of better accuracy. I think that 
is an area that is ripe for improvement.
    We recently hired a new Chief Financial Officer, so I have 
great hope that there are going to be great strides in that 
area. Thank you.
    Senator Carper. All right, good. Thank you. Commissioner 
Baran, please?
    Mr. Baran. Just very briefly. I think NRC is going to have 
an important mission in 2030 and in 2040 and in 2050. The one 
thing that worries me is our work force, at this point. We have 
got a great work force right now, but we have about 7 percent 
attrition each year. We have about 7 percent of the people 
leaving, and that is a couple hundred.
    I worry that we are not doing nearly enough external hiring 
at this point, both entry level hiring and mid-career, which is 
not where we need to be. The budget request for 2021 has a new 
entry level hiring program, 39 people. It is great, but when 
you are losing 200, I don't think it is nearly enough.
    Senator Carper. Thank you.
    Madam Chair, a closing thought, please. Say something 
brilliant so the other commissioners will say, God, I wish I 
had said that.
    [Laughter.]
    Ms. Svinicki. No pressure, though.
    These hearings are a reminder to me of how much we agree 
on, as a commission. When I joined the commission over 12 years 
ago, I thought, coming as Senate staff, I wasn't sure how much 
of my recent experience was going to be called into play day-
to-day in serving on a commission like this. I thought I would 
have to harken back to my nuclear engineering work at DOE, or 
my education and training.
    But the truth is, what continues to be so rewarding about 
it is that we look for common ground. It is a lot like my 
experiences in the Senate. As soon as we disagree on something, 
we have moved on to the next thing where we can find kind of 
the center of working as a group. The President has nominated 
an individual who would bring our numbers back up to five.
    It is something that the shaping of this, and when I give 
an answer, and I hear what Commissioner Baran says, and it is 
like, oh, that is really good, and then we go down the line. 
That, I think, again, is the wisdom of why Congress created 
that nuclear safety would be regulated by a commission 
structure. Because in the push and pull of all those 
perspectives, and again, we don't agree on everything, but 
there is so much common ground. And this is true of the four 
chairmen I have served under, and even in noteworthy days when 
it wasn't as collegial, there still was a lot of agreement.
    I think we safeguard that very, very carefully. That 
matters to us a lot.
    Senator Carper. That is a good note to close on. Thank you 
all very much for being here.
    Senator Barrasso. Complimenting the wisdom of Congress, 
that is a good way to end one of these things. Thank you. Thank 
you.
    Members may submit followup written questions for the 
record. The hearing record will be open for 2 weeks.
    I want to thank the witnesses for your testimony. The 
hearing is adjourned.
    [Whereupon, at 11:22 a.m., the hearing was adjourned.]
  

                                  <all>
</pre></body></html>
